                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 109060031                                                                Page 1 of 1



                We received an allegation that an NSF program officer, 1 who was working at NSF in a
         temporary position under the Intergovernmental Personnel Act, reviewed and approved an
         annual report submitted by a Principal Investigator (PI) from his home institution and
         department. While this was a technical violation of 18 U.S.C. § 208, the following facts
         mitigate this violation: at the time, P was temporarily handling PO responsibilities for a
         colleague who was on travel, in addition to his own PO duties; his violation was inadvertent;
         approving the report merely provided more time for the PI to finish spending the funds for a
         small international collaboration award; he does not collaborate with the PI and CQuid not
         have rationally anticipated receiving any direct financial benefit from his action; he was a
         temporary federal employee who is unlikely to return to federal government service; and he
         has no record of previous such offenses.

                   Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
